                 Department of Veterans Affairs
                 Office of Inspector General



                   Office of Healthcare Inspections

Report No. 13-00853-100




                 Healthcare Inspection 


   Alleged Adverse Outcomes and Access 

   Issues in Diagnostic Imaging Services 

       North Florida/South Georgia 

          Veterans Health System 

             Gainesville, Florida





March 20, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL



                                  Executive Summary 

 The VA Office of Inspector General Office of Healthcare Inspections conducted an
 inspection in response to complaints about diagnostic imaging services at the North
 Florida/South Georgia Veterans Health System, Gainesville and Lake City, FL (system).

 We substantiated that some patients with documented contrast media (contrast)
 allergies received contrast for Computed Tomography (CT) exams; however, the
 system had processes in place to address potential adverse effects of contrast
 administration. We did not substantiate that patient deaths occurred as a result of
 contrast administration.

 We substantiated that ureteral stent placements were performed in the Gainesville
 cystoscopy clinic without general anesthesia; however, we found that other appropriate
 measures were taken to provide pain control. Further, we did not substantiate that the
 clinic setting was chosen so that urology resident physicians could perform a required
 number of stent placements for professional education.

 We substantiated that a staff member in the Lake City campus CT department was
 absent for a protracted period and that the system did not replace/maintain staff levels
 using alternative measures. However, we did not substantiate that the reduced staffing
 resulted in a backlog of patients.

 We did not substantiate that a pre-procedure marking was incorrect or that a patient’s
 bowel was perforated. The pre-procedure marking was verified by a radiologist, and an
 autopsy showed no gross perforation of the bowel.

 We did not substantiate that the system lacked after-hours radiologist support for CT
 technologists at the Lake City campus.       Offsite radiologists were available to
 technologists after hours from the Gainesville campus and through the National
 Tele-radiology Program.

 We did not substantiate that the CT scanner at the Lake City campus was beyond its
 useful life and broke down weekly. The scanner had been serviced by the manufacturer
 with an up-time rate greater than 98 percent. A new scanner has recently been
 installed in accordance with a routine replacement schedule.

 We made no recommendations.




 VA Office of Inspector General                                                                     i
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL


 Comments
 The Veterans Integrated Service Network and System Directors concurred with the
 report. (See Appendixes A and B, pages 11–12, for the Directors’ comments.) No
 further action is required.




                                                             JOHN D. DAIGH, JR., M.D.
                                                            Assistant Inspector General for
                                                              Healthcare Inspections




 VA Office of Inspector General                                                                     ii
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL



                                           Purpose 

 The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
 an inspection in response to complaints about diagnostic imaging services at the North
 Florida/South Georgia Veterans Health System, Gainesville, and Lake City, FL
 (system). The OIG was contacted by a confidential complainant who alleged that
 patients received inappropriate treatment that resulted in death or harm and that there
 was poor oversight of the Diagnostic Imaging Service (DIS). During that investigation,
 the OIG hotline received a second confidential complaint regarding DIS. The purpose
 of the review was to determine whether the allegations had merit.

                                       Background 

 The system consists of two campuses; one located in Gainesville, FL, and the other in
 Lake City, FL, and is part of Veterans Integrated Service Network (VISN) 8, the VA
 Sunshine Healthcare Network. The system has 687 beds with 3 large multi-specialty
 outpatient clinics, 7 community based outpatient clinics, and a rural health outpatient
 clinic. A full range of primary, secondary, and tertiary care services is offered to more
 than 125,263 veterans from 50 counties.

 The Chief of DIS is located at the Gainesville campus and is responsible for the overall
 management of the service. The Associate Chief of DIS and a DIS Technologist
 Supervisor are located at the Lake City campus. They supervise radiologists and
 technologists who provide General Radiology, Computed Tomography (CT), Magnetic
 Resonance Imaging (MRI), and Ultrasound (US) services. After normal business hours,
 the Lake City campus is staffed with one CT technologist until midnight. After midnight
 and on weekends, a CT technologist is on call.

 The Chief of Urology is located at the Gainesville campus, is responsible for the overall
 management of the urology service, and directly supervises all urology attending
 physicians. The attending physicians supervise the residents. The Lake City campus is
 staffed with a urologist, and no residents are assigned.

 Contrast Media

 Contrast media (contrast) are used to improve pictures of the inside of the body
 produced by x-ray, CT, MRI, and US. By improving the visibility of specific organs,
 blood vessels, or tissues, contrast helps physicians diagnose the presence of medical
 conditions and the extent of disease or injury. When the test is finished, the kidneys
 and liver eliminate the contrast from the body.

 Adverse reactions to contrast range from mild to severe and can appear up to 7 days
 after contrast administration. Examples of adverse reactions include rash; itching;
 sudden swelling of the mouth or throat, which may restrict breathing; and residual
 kidney damage after the contrast is excreted from the body. VHA requires that patients
 are screened for prior allergic reactions, kidney failure, or other risk factors during the


                                                                                                   1
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL


 consent process.1 Patients at risk for an allergic or adverse reaction to contrast are not
 precluded from receiving it. Medications, including steroids or antihistamines, can be
 given to prevent or decrease adverse effects before the contrast is administered.

 Liver Disease Evaluation by Ultrasound

 Cirrhosis occurs in the later stages of liver disease, where liver fibrosis has resulted in
 widespread scarring of normal liver tissue. Symptoms may not develop for years and
 are often nonspecific (for example, anorexia, fatigue, and weight loss).               Late
 manifestations include portal hypertension (increased pressure in liver blood vessels)
 and ascites (abnormal accumulation of fluid in the peritoneal cavity causing swelling of
 the abdomen).

 Pain and discomfort caused by ascites can be relieved by paracentesis, a procedure
 that can also assist with diagnosis. Paracentesis is performed by inserting a needle
 through the abdominal wall to remove ascitic fluid. Prior to the procedure, an ultrasound
 may be done to identify the best areas in the abdomen for fluid removal. Once
 identified, the area is marked on the skin with a pen, a needle is inserted at the mark,
 and after withdrawal, the fluid is sent to a laboratory for analysis and cultures.

 Air is not normally present in the abdominal cavity but may enter the abdominal cavity
 during puncture of the abdominal wall for paracentesis. Air may also enter the
 abdomen from the bowel if it is punctured or traumatized.

 Spontaneous bacterial peritonitis is an infection of ascitic fluid caused by bacteria
 crossing from the bowel into systemic circulation causing an infection that has a
 significant mortality rate.

 Ureteral Stent Placement

 Urine is normally carried from the kidneys to the bladder via a pair of long narrow tubes
 called ureters (each kidney is connected to one ureter). A ureter may become
 obstructed as a result of a number of conditions including kidney stones, tumors, or
 blood clots. A ureteral stent is a small flexible tube placed in the ureter to restore the
 flow of urine from the kidney to the bladder or to an external collection system.

 Resident physicians in training can perform ureteral stent placements under supervision
 of attending physicians. Resident training programs are accredited by the Accreditation
 Council for Graduate Medical Education (ACGME). ACGME establishes standards for
 medical residents regarding the types of procedures residents must perform and
 minimum requirements for those procedures.




 1
     VHA Handbook 1004.01, Informed Consent for Clinical Treatments and Procedures, August 14, 2009.

                                                                                                       2
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL


 CT Scanner Useful Life Expectancy

 VA has developed criteria for determining the life expectancy2 of equipment it
 purchases. A category stock number (CSN) is assigned to equipment with life
 expectancy of greater than 2 years.

 VA requires facilities to use the Automated Engineering Management System /Medical
 Equipment Reporting System (AEMS/MERS) to manage equipment with a CSN
 throughout its life expectancy.

 To leverage its buying power, VA has established the National Acquisition Center (NAC)
 to procure high cost medical equipment. Requests are submitted through the VISN.

 Allegations

 Specifically, the complainants alleged that:

     	 Patients with documented contrast media allergies received contrast for CT
        exams resulting in patient deaths.

     	 Radiologists failed to review CT exam orders.

     	 The system lacked policies regarding contrast administration.

     	 A pre-procedure marking was incorrect, causing a physician to perforate a
        patient’s bowel during paracentesis, resulting in the patient’s death.

     	 Ureteral stent placements were performed in the cystoscopy clinic at the
        Gainesville campus without general anesthesia.

     	 The clinic setting was selected for ureteral stent placements to support urology
        resident physician training requirements.

     	 The system lacked radiologist support for CT technologists after hours.

     	 The CT scanner at the Lake City campus was beyond its useful life and broke
        down weekly.

     	 While a CT staff member was absent for a protracted period, the system did not
        replace/maintain staff levels using alternative measures, resulting in a backlog of
        patients.

 Both complainants made additional allegations regarding human resources and equal
 employment opportunity issues that were beyond the scope of our review.

 2
  In this context, life expectancy refers to the normal operating life of an asset in terms of usefulness to the owner.
 VA Financial Policy Volume V, Chapter 9, October 2013.


                                                                                                                          3
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL



                            Scope and Methodology 

 We conducted a site visit from July 15–19, 2013. We interviewed the Chief of Staff,
 Chiefs of Urology and DIS, staff urologists, and all CT technologists assigned to DIS at
 the Lake City campus. Telephone interviews were also conducted with Quality
 Management staff and other relevant staff members throughout the review. We
 reviewed patients’ electronic health records, system quality management documents
 including CT wait times, DIS staff meeting minutes, staff training records, certifications,
 and staffing schedules. In addition, we reviewed relevant system, VHA, American
 College of Radiology, and Joint Commission policies; system patient advocate data;
 and biomedical engineering records. We also interviewed the complainants, one of
 whom was unable to provide us with specific information concerning the allegations.

 Without specific information identifying patients, it was necessary to define a population
 that may have been at risk or harmed based on the allegations. We used Current
 Procedural Terminology, a standard listing of descriptive terms and identifying codes for
 reporting medical services and procedures, to isolate representative groups of patients
 for the contrast and stent insertion allegations. Date ranges were established based on
 the allegations, and location of procedure was used to further define the respective
 populations. We identified 32 patients who underwent procedures consistent with the
 stent placement allegations and 16 patients who died within 7 days after receiving
 contrast for a CT exam. We reviewed health records for 100 percent of these patients.

 We inspected patient care areas of DIS and urology services at both campuses.

 We did not review the allegations regarding human resources or equal employment
 opportunity.

 We conducted the inspection in accordance with Quality Standards for Inspection and
 Evaluation published by the Council of the Inspectors General on Integrity and
 Efficiency.




                                                                                                   4
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL



                                  Inspection Results 

 Issue 1: Inadequate Oversight of CT Imaging Processes

 Patients with Contrast Allergies Received Contrast. We substantiated the allegation
 that some patients with documented contrast allergies received contrast for CT exams;
 however, we did not substantiate that patient deaths occurred as a result of contrast
 administration.

 The system screened patients for contrast allergy and other risk factors prior to CT
 exams which used contrast. Local policy required a radiologist to review orders for CT
 prior to starting the procedure. Issues related to contrast contraindications were to be
 resolved by the radiologist and the ordering provider, and in most cases the orders were
 modified and the exams were completed without contrast administration.

 When the use of contrast was unavoidable in patients with documented contrast
 allergies, the system used an approved procedure for pretreatment that included an
 antihistamine and a steroid to prevent or minimize potential adverse reactions. The
 approved pretreatment was required to begin 13 hours prior to the CT exam. Emergent
 exams did not allow time for pretreatment and in these cases, local policy required the
 ordering provider to consult with a radiologist.

 Staff recalled only one instance when contrast was required for an emergent CT exam
 for a patient with a documented allergy to contrast. A radiologist and the ordering
 provider reviewed the patient’s medical history and determined that the documented
 reaction did not reflect a true contrast allergy. The CT exam was performed with
 contrast, the patient did not experience an adverse reaction, and the allergy
 documentation was corrected in the patient’s health record.

 Radiologist Review of CT Orders. We did not substantiate allegations that radiologists
 failed to review CT orders, particularly when they originated from the ED. Local policy
 required a radiologist to review CT orders and select the appropriate protocol
 (parameters) for the exam. We found that system leaders had identified issues
 regarding protocols for CT requests and designated certain radiologists with
 responsibility for reviewing orders during the daytime shift. Additionally, the Lake City
 campus had a policy that listed CT exams that could be ordered by the ED or Urgent
 Care providers and performed without consulting a radiologist because the exam
 protocols were standardized.

 Contrast Administration Policies. We did not substantiate that the system lacked
 policies regarding contrast administration. We reviewed local policies and during our
 discussions, most staff recalled receiving information about policies through email
 notifications or staff meetings and they were aware that printed protocols were
 available.




                                                                                                   5
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL


 Issue 2: Incorrect Pre-Procedure Marking

 We did not substantiate the allegation that a pre-procedure marking was incorrect,
 causing a physician to perforate a patient’s bowel during paracentesis and resulting in
 the patient’s death.

 The patient, who was in his early seventies, used the VA infrequently for his medical
 care. In August 2012, he presented with complaints of moderate to severe abdominal
 pain, distention, and diarrhea for over a month. He stated that eating made the pain
 worse and he had not eaten for a few days. The patient’s blood pressure was low, and
 he complained of dizziness upon standing. During physical examination, a physician
 noted significant swelling in his feet and scrotum.

 The patient was admitted to the Medical Intensive Care Unit (MICU) at the Lake City
 campus with a diagnosis of cirrhosis of the liver with ascites and abdominal pain. The
 patient’s medical history included diabetes (type II), hypertension, hyperlipidemia, and
 anemia.

 The patient was scheduled for a paracentesis. Prior to undergoing the paracentesis, a
 pre-procedure marking was ordered by a physician.          An ultrasound technician
 performed the marking which was verified by a radiologist.

 During the procedure, peritoneal fluid was drained from multiple areas. A total of three
 liters of slightly clouded, brown fluid was removed. Analysis of the peritoneal fluid
 showed it contained a very high level of amylase, an indicator of pre-existing bowel
 injury. The patient tolerated the procedure well and returned to the ward.

 Later that afternoon while on the ward, the patient developed increased abdominal pain
 and worsening low blood pressure. An abdominal CT scan revealed free abdominal air.
 The patient’s blood pressure was stabilized and he was transferred to the MICU at the
 Gainesville campus in critical condition with a poor prognosis. During the patient’s
 hospitalization, he was placed on antibiotic therapy.          Blood transfusions and
 medications were given in an attempt to control his hypotension. The patient also
 developed lactic acidosis and respiratory distress which required intubation. He
 continued to decline and died 3 days after the paracentesis.

 An autopsy was performed, and the cause of death was listed as sepsis and acute
 multi-organ failure on the background of cirrhosis. The pathologist who inspected the
 bowel told us that he did not identify a perforation associated with the paracentesis . He
 additionally stated that the patient developed spontaneous bacterial peritonitis, which is
 common among patients with cirrhosis and ascites and is associated with a significant
 mortality rate.

 Issue 3: Pain Management during Ureteral Stent Placement

 Pain Management. We substantiated the allegation that ureteral stent placements were
 performed in the Gainesville cystoscopy clinic without general anesthesia; however, we
 found that other appropriate measures were taken to provide pain control. Further, we

                                                                                                   6
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL


 did not substantiate that the clinic setting was chosen so that urology resident
 physicians could perform a required number of stent placements for professional
 education.

 At the Gainesville campus, ureteral stent placements were performed in the cystoscopy
 clinic without the use of general anesthesia; however, patients received local anesthetic
 prior to the procedure. Staff told us that additional medication was provided if a patient
 continued to have discomfort, and if pain persisted, the procedure would be stopped
 and rescheduled for the operating room. Pain levels were assessed before and after
 the procedure, either by use of a pain scale or by assessment of the patient’s tolerance
 level for the procedure. None of the patients whose records we reviewed required
 rescheduling.

 Resident Training. We did not substantiate that the clinic setting was selected to
 support urology resident physician training requirements. System leaders told us they
 utilized the clinic for stent placements in order to preserve the schedule of surgical
 cases that required the operating room setting. For example, a patient who presented
 with a ureteral blockage and needed urgent or emergent stent placement could be
 treated in the cystoscopy clinic without preempting surgery scheduled in the operating
 room. Additionally, we found that ACGME had no requirement to record numbers of
 ureteral stent placements performed.

 Issue 4: Radiologist Support at the Lake City Campus

 We did not substantiate allegations that the system lacked radiologist support for CT
 technologists after hours.

 DIS offered CT exams 24 hours each day, 7 days each week (24/7). At the Lake City
 campus, CT technologists were scheduled to work until midnight; from then until
 8:00 a.m. they took call on a rotating basis, returning if needed to perform urgent
 exams. Radiologists were scheduled to work at the Lake City campus until the end of
 the day shift, after which time the CT technologists were instructed to call radiology
 resident physicians who were on duty after hours at the Gainesville campus. Staff told
 us that the resident physicians did not respond to phone calls in a timely manner;
 however, we could not substantiate that allegation. The system also designated
 attending radiologists to be available on a rotating basis by telephone as additional
 support.




                                                                                                   7
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL


 To expedite performing urgent or emergent CT exams, the system had a policy in place
 that specified exams with pre-standardized protocols for use after hours. Although no
 radiologists were on site at the Lake City campus after hours to read exams, CT exam
 images could be transmitted to the National Tele-radiology Program where off-site
 radiologists read the images and returned the results to Lake City.

 Issue 5: CT Scanner Life Expectancy

 We did not substantiate the allegations that the CT scanner is beyond its useful life and
 breaks down weekly.

 The Lake City campus had one CT scanner which was 8 years old. The predicted VA
 life expectancy for CT scanners is 10 years. The system contracted with the
 manufacturer to provide preventive and emergency maintenance. The service contract
 included a provision requiring the CT scanner to be maintained at a quarterly uptime
 rate of 98 percent.

 Biomedical engineers told us that the CT scanner had recurring issues in the 1st quarter
 of FY 2013, which caused 16 hours of downtime. Prior to that time, the uptime report
 for FY2012–2013 showed the CT scanner uptime rate was 100 percent. The uptime
 rate dropped to 98 percent during the time of the recurring issues. At the time of our
 inspection, the scanner uptime rate was 99 percent.

 The process to replace the scanner was initiated 2 years ago with the VHA’s National
 Acquisition Center. The new scanner has been installed and is operational.

 Issue 6: CT Technologist Staffing Issues

 We substantiated that while a staff member was absent for a protracted period, the
 system did not replace/maintain staff levels using alternative measures. However, we
 did not substantiate that the reduced staffing resulted in a backlog of patients.

 Four CT technicians worked in DIS. One was detailed outside of the department for
 8 months, leaving the 3 remaining CT technologists to provide 24/7 service. Two
 technologists were assigned to the day shift, and one worked from 4:00 p.m. until
 midnight. The daytime technologists took call on a rotating basis after midnight and on
 weekends. No additional staffing plan was implemented to provide support when CT
 technologists needed to use planned or unplanned leave.

 During our onsite visit the detailed staff member had returned and was being
 reintegrated into the staffing schedule.

 We reviewed Outpatient Imaging Procedure Wait Time Reports and did not substantiate
 that patient wait times increased during the period the staff member was detailed.




                                                                                                   8
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL



                                       Conclusions 

 We substantiated the allegation that some patients with documented contrast allergies
 received contrast for CT exams; however, the system had processes in place to
 address potential adverse effects of contrast administration. We did not substantiate
 that patient deaths occurred as a result of contrast administration.

 We substantiated the allegation that ureteral stent placements were performed in the
 Gainesville cystoscopy clinic without general anesthesia; however, we found that the
 other appropriate measures were taken to provide pain control. Further, we did not
 substantiate that the clinic setting was chosen so that urology resident physicians could
 perform a required number of stent placements for professional education.

 We substantiated that there was reduced staffing for a protracted period in the CT
 department and that the system did not replace/maintain staff levels using alternative
 measures. However, we did not substantiate that the reduced staffing resulted in a
 backlog of patients.

 We did not substantiate the allegations that the pre-procedure marking used to guide
 needle insertion for a paracentesis was incorrect, that the patient’s bowel was
 perforated, or that these actions were associated with the patient’s death. The pre-
 procedure marking was verified by a radiologist and autopsy showed no gross
 perforation of the bowel.

 We did not substantiate allegations that the system lacked radiologist support for CT
 technologists after hours at the Lake City campus. Offsite radiologists were available to
 technologists after hours from the Gainesville campus and through the National
 Tele-radiology Program.

 We did not substantiate the allegations that the CT scanner was beyond its useful life
 and broke down weekly. The scanner was serviced by the manufacturer and
 maintained in accordance with the service contract. A new scanner has been installed
 and is operational.

 We made no recommendations.




                                                                                                   9
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL
                                                                                         Appendix A
                             VISN Director Comments


                Department of
                Veterans Affairs                                    Memorandum


        Date: February 14, 2014

       From: Director, VA Sunshine Healthcare Network

     Subject: Healthcare Inspection – Alleged Adverse Outcomes and Access
              Issues in Diagnostic Imaging Services, North Florida/South Georgia
              Veterans Health System, Gainesville and Lake City, FL

         To:    Director, Washington DC Office of Healthcare Inspections (54DC)

                Director, Management Review Service (VHA 10AR MRS OIG
                Hotline)

                I have reviewed and concur with the conclusion of no findings or
                recommendations based on this report.

                Thank you for the opportunity to add comments however no additional
                comments are requested.




                Joleen Clark, MBA, FACHE




 VA Office of Inspector General                                                                   10
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL
                                                                                         Appendix B
                          System Director Comments


                Department of
                Veterans Affairs                                    Memorandum


        Date: February 10, 2014

       From: System Director

     Subject: Healthcare Inspection – Alleged Adverse Outcomes and Access
              Issues in Diagnostic Imaging Services, North Florida/South Georgia
              Veterans Health System, Gainesville and Lake City, FL

         To:    Director, VA Sunshine Healthcare Network (10N8)

                1. Thank you for the opportunity to review and provide comments
                   to this report.

                2. I 	have reviewed and concur with the finding of no
                   recommendations presented by the Office of Healthcare
                   Inspections.



                    (original signed by:)

                  Thomas Wisnieski, MPA, FACHE




 VA Office of Inspector General                                                                   11
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL
                                                                                         Appendix C

                  OIG Contact and Staff Acknowledgments
 Contact                 For more information about this report, please contact the OIG at
                         (202) 461-4720.
 Contributors            Bruce Barnes, Team Leader
                         Katharine Foster, RN
                         Victor Rhee, MHS
                         Thomas Seluzicki, CPA
                         Michael L. Shepherd, MD
                         Randall Snow, JD
                         Natalie Sadow, MBA, Program Support Assistant




                                                                                                  12
Alleged Adverse Outcomes, Access Issues in Diagnostic Imaging, North FL/South GA VHS, Gainesville, FL
                                                                                         Appendix E



                                   Report Distribution 

 VA Distribution 


 Office of the Secretary 

 Veterans Health Administration 

 Assistant Secretaries 

 General Counsel 

 Director, VA Sunshine Healthcare Network (10N8) 

 Director, VAMC North Florida/South Georgia Veterans Health System (573/00) 


 Non-VA Distribution

 House Committee on Veterans’ Affairs
 House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
  Related Agencies
 House Committee on Oversight and Government Reform
 Senate Committee on Veterans’ Affairs
 Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
  Related Agencies
 Senate Committee on Homeland Security and Governmental Affairs
 National Veterans Service Organizations
 Government Accountability Office
 Office of Management and Budget
 U.S. Senate: Saxby Chambliss, Johnny Isakson, Bill Nelson, Marco Rubio
 U.S. House of Representatives: Sanford D. Bishop, Jr., Corrine Brown, Ander

 Crenshaw, Ron DeSantis, Jack Kingston, Rich Nugent, Austin Scott, Steve 

 Southerland, II,Ted S. Yoho 



 This report is available on our web site at www.va.gov/oig




                                                                                                  13
